HHS/OIG-Audit--"Review of Recharge Centers at the University of Colorado,
(A-08-95-00906)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Recharge Centers at the University of Colorado," (A-08-95-00906)
November 28, 1995
Complete Text of Report is available in PDF format
(897 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discusses the adequacy of University control procedures for
recharge centers. Specifically, we determined the University had no formal policies
and procedures to (1) set and monitor billing rates, (2) adjust billing rates
annually to eliminate accumulated surpluses and deficits, and (3) preclude transferring
or expending recharge center funds for unrelated purposes. We recommended that
the University develop and implement procedures and controls over the operations
of recharge centers. The University agreed with our report recommendations.